TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          Collection Employees Adhered to
                           Fair Tax Collection Practices
                               During Fiscal Year 2010



                                           April 25, 2011

                              Reference Number 2011-10-045




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  HIGHLIGHTS


COLLECTION EMPLOYEES ADHERED                         that should have been coded as violations but
TO FAIR TAX COLLECTION PRACTICES                     were not. While no FTCP violations were
DURING FISCAL YEAR 2010                              identified, 114 cases were opened and
                                                     subsequently removed from the ALERTS and
                                                     were not available for our review. IRS
Highlights                                           management did not always maintain
                                                     documentation to substantiate removal of these
Final Report issued on April 25, 2011                cases. As a result, TIGTA could not verify that
                                                     these cases were not FTCP violations.
                                                     IRS management indicated that they had
Highlights of Reference Number: 2011-10-045
                                                     previously identified the lack of documentation to
to the Internal Revenue Service Chief Counsel
                                                     be an issue and had plans to implement a
and the Internal Revenue Service Human
                                                     system-generated audit log for the ALERTS by
Capital Officer.
                                                     approximately June 2011.
IMPACT ON TAXPAYERS                                  In addition, there were no civil actions resulting
The abuse or harassment of taxpayers by              in monetary settlements paid to taxpayers
Internal Revenue Service (IRS) employees while       because of an FTCP violation.
attempting to collect taxes reflects poorly on the
                                                     WHAT TIGTA RECOMMENDED
IRS and can have a negative impact on
voluntary compliance. It can also result in civil    TIGTA made no recommendations in this report.
damages against the Federal Government when          However, key IRS management officials
Fair Tax Collection Practices (FTCP) are             reviewed the report prior to issuance and agreed
violated. During Fiscal Year 2010, there were        with the facts and conclusions presented.
no cases involving FTCP violations for which an
employee received administrative disciplinary
action, and there were no taxpayers who
received civil damages for an FTCP violation.
As such, taxpayers have reasonable assurance
that communications with the IRS in connection
with the collection of unpaid taxes generally did
not violate the FTCP statute.
WHY TIGTA DID THE AUDIT
Section 1102(d)(1)(G) of the IRS Restructuring
and Reform Act of 1998 requires TIGTA to
include in one of its Semiannual Reports to
Congress information regarding administrative
or civil actions related to FTCP violations listed
in 26 U.S.C. Section 6304. The overall objective
of this review was to obtain information on
IRS administrative or civil actions resulting from
FTCP violations by IRS employees.
WHAT TIGTA FOUND
No FTCP violations were identified for cases on
the IRS Human Capital Officer Workforce
Relations’ Automated Labor and Employee
Relations Tracking System (ALERTS) that were
closed in Fiscal Year 2010. In addition, no
cases were identified that were miscoded as
FTCP violations and should not have been or
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                April 25, 2011


 MEMORANDUM FOR CHIEF COUNSEL
                INTERNAL REVENUE SERVICE HUMAN CAPITAL OFFICER

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Collection Employees Adhered to Fair Tax
                                 Collection Practices During Fiscal Year 2010 (Audit # 201110013)

 This report presents the results of our review of Fair Tax Collection Practices1 (FTCP) violations
 during Fiscal Year 2010. The overall objective of this review was to obtain information on
 Internal Revenue Service (IRS) administrative or civil actions resulting from violations of FTCP
 for cases opened after July 22, 1998, and closed during Fiscal Year 2010. Section 1102(d)(1)(G)
 of the IRS Restructuring and Reform Act of 19982 requires the Treasury Inspector General for
 Tax Administration to include in one of its Semiannual Reports to Congress information
 regarding administrative or civil actions related to FTCP violations. This audit is included in
 our Fiscal Year 2011 Annual Audit Plan and addresses the major management challenge of
 Taxpayer Protection and Rights.
 We made no recommendations in this report. However, key IRS management officials reviewed
 the report prior to issuance and agreed with the facts and conclusions presented.
 Copies of this report are also being sent to the IRS managers affected by the report results.
 Please contact me at (202) 622-6510 if you have questions or Nancy A. Nakamura, Assistant
 Inspector General for Audit (Management Services and Exempt Organizations),
 at (202) 622-8500.




 1
     26 U.S.C. Section 6304 (2007).
 2
     Pub. L. No. 105-206, 112 Stat. 702-703.
                                       Collection Employees Adhered to Fair Tax
                                      Collection Practices During Fiscal Year 2010




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          No Fair Tax Collection Practices Violations or Miscoded Cases
          Were Identified; However, Some Records Could Not Be Reviewed ........... Page 3
          No Fair Tax Collection Practices Violations Resulted in
          Civil Damages (Monetary Awards) to Taxpayers ........................................ Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 5
          Appendix II – Major Contributors to This Report ........................................ Page 7
          Appendix III – Report Distribution List ....................................................... Page 8
          Appendix IV – Fair Tax Collection Practices Provisions ............................. Page 9
          Appendix V – Fair Tax Collection Practices Violation Issue Codes ............ Page 10
          Collection Employees Adhered to Fair Tax
         Collection Practices During Fiscal Year 2010




               Abbreviations

ALERTS   Automated Labor and Employee Relations Tracking System
FTCP     Fair Tax Collection Practices
IRS      Internal Revenue Service
                                   Collection Employees Adhered to Fair Tax
                                  Collection Practices During Fiscal Year 2010




                                               Background

The Fair Debt Collection Practices Act1 includes provisions that restrict various collection abuses
and harassment in the private sector. However, prior to the Internal Revenue Service (IRS)
Restructuring and Reform Act of 1998,2 restrictions such as these did not apply to the Federal
Government. Congress believes that it is appropriate to require the IRS to comply with certain
portions of the Fair Debt Collection Practices Act and to be at least as considerate to taxpayers as
private creditors are required to be with their customers. Therefore, with the passage of the
IRS Restructuring and Reform Act of 1998, the IRS is required to follow provisions, known as Fair
Tax Collection Practices (FTCP), that are similar to those in the Fair Debt Collection Practices Act.3
IRS employees who violate the FTCP are subject to
disciplinary actions. Violations of the FTCP and related
                                                                 IRS employees who violate Fair
disciplinary actions are tracked on the IRS Human Capital          Tax Collection Practices are
Officer Workforce Relations’ Automated Labor and                  subject to disciplinary actions.
Employee Relations Tracking System (ALERTS). In
addition, if any of the FTCP provisions are violated, the
taxpayer can file a claim against the Federal Government under 26 U.S.C. § 7433, Civil Damages
for Certain Unauthorized Collection Actions. Taxpayers may file an administrative claim for
damages with the applicable IRS executive for the location in which the taxpayer resides or file for
civil damages in Federal district court. Taxpayer civil actions are tracked on the Office of Chief
Counsel’s Counsel Automated System Environment.
The IRS Restructuring and Reform Act of 1998 § 1102(d)(1)(G)4 requires the Treasury Inspector
General for Tax Administration to include in one of its Semiannual Reports to Congress information
regarding administrative or civil actions related to FTCP violations listed in 26 U.S.C. § 6304.5
This report must provide a summary of such actions and include any judgments or awards granted.
The Treasury Inspector General for Tax Administration is required to report as violations the
actions taken by IRS employees who were involved in a collection activity and who received a
disciplinary action that is considered an administrative action.6 Information from this report will be
used to meet the requirements of the IRS Restructuring and Reform Act of 1998 § 1102(d)(1)(G).


1
  15 U.S.C. Sections (§§) 1601 note, 1692-1692o (2006).
2
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
3
  See Appendix IV for a detailed description of FTCP provisions.
4
  Pub. L. No. 105-206, 112 Stat 702-703.
5
  26 U.S.C. § 6304 (2007).
6
  The law does not provide a definition of “administrative action;” however, for this review, we used the IRS’s
definition, which is action that ranges from a letter of admonishment to removal.
                                                                                                                  Page 1
                            Collection Employees Adhered to Fair Tax
                           Collection Practices During Fiscal Year 2010



This review was performed at the IRS National Headquarters offices of the Chief Counsel and
the IRS Human Capital Officer in Washington, D.C., during the period January through
February 2011. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                       Page 2
                                  Collection Employees Adhered to Fair Tax
                                 Collection Practices During Fiscal Year 2010




                                      Results of Review

No Fair Tax Collection Practices Violations or Miscoded Cases Were
Identified; However, Some Records Could Not Be Reviewed
No FTCP violations were identified for cases closed in Fiscal Year 2010 on the ALERTS.7 As
such, taxpayers have reasonable assurance that communications with the IRS in connection with
the collection of unpaid taxes generally did not violate the FTCP statute.
In addition, the IRS has substantially reduced the number of cases miscoded on the ALERTS.
In previous reports, a significant number of cases were miscoded. For example, in
Calendar Year 2007, 13 cases were miscoded because: 1) the employee was not in a
collection-related job series, 2) the case did not involve a taxpayer or taxpayer representative, or
3) the case should have been coded as an FTCP violation
but instead had been coded as “Fighting” or
                                                                   The IRS did not document
“Unprofessional Conduct.” During this review, we did                 any FTCP violations in
not identify any cases that were miscoded as                        Fiscal Year 2010, and we
FTCP violations but should not have been. To                       did not identify any cases
determine whether any cases were miscoded and should                 that should have been
                                                                  documented as a violation.
have been coded as FTCP violations, we reviewed all
35 cases on the ALERTS involving a taxpayer or
taxpayer representative and an employee in a collection-related job series coded as “other case”
categories involving employee misconduct allegations, including those coded as either
“Unprofessional Conduct” or “Not Otherwise Coded.” No cases were identified that should have
been coded as FTCP violations.
Although no FTCP violations were identified in the ALERTS data we reviewed, we determined
that 114 out of 20,060 cases opened in Fiscal Year 2010 were subsequently removed from the
ALERTS and were not available for our review. As a result, we could not verify that these cases
were not FTCP violations. IRS management stated the reasons for removal of the cases included
download errors from a system that feeds into the ALERTS and data entry errors. We selected a
judgmental sample for review and found that documentation was not maintained supporting the
removal of 4 (27 percent) of 15 cases from the sample. Inventory control on the ALERTS is
important to prevent the unsubstantiated removal of employee cases, including FTCP violations
that may warrant IRS management administrative actions. IRS management indicated that they
had previously identified the lack of documentation to be an issue and had plans to implement a

7
 We could not validate that the cases identified on the ALERTS constitute all FTCP violations, or determine if any
potential violations were reported to the IRS’s Workforce Relations office but not recorded on the ALERTS.
                                                                                                           Page 3
                            Collection Employees Adhered to Fair Tax
                           Collection Practices During Fiscal Year 2010



system-generated audit log for the ALERTS by approximately June 2011. The audit log will
provide a record of the date of removal, the employee initiating the removal, and the reason for
removal for all cases removed from the ALERTS. Because the IRS already had plans to address
this control weakness, we are not making any recommendations at this time; however, we will
review this corrective action in our next audit of FTCP violations.

No Fair Tax Collection Practices Violations Resulted in Civil Damages
(Monetary Awards) to Taxpayers
Internal Revenue Code § 74338 provides that a taxpayer may bring a civil action for damages
against the Federal Government if an officer or employee of the IRS recklessly, intentionally, or
negligently disregards any provision of the Internal Revenue Code or related regulation in
connection with the collection of Federal tax. There were no cases closed on the Counsel
Automated System Environment during Fiscal Year 2010 for which the IRS paid civil damages to
taxpayers resulting from FTCP violations.




8
    26 U.S.C. § 7433.
                                                                                          Page 4
                                 Collection Employees Adhered to Fair Tax
                                Collection Practices During Fiscal Year 2010



                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this audit was to obtain information on any IRS administrative or civil
actions resulting from violations of FTCP for cases opened after July 22, 1998, and closed during
Fiscal Year 2010. To accomplish this objective, we:
I.      Obtained all available ALERTS data and performed the following tests to validate the
        accuracy and completeness of the data.
        A. Performed checks of the data to determine whether information in various data fields
           was reasonable. For example, we determined if date fields contained dates, if any
           blank fields were explainable, and if there were unexplained gaps in the sequential
           order1 of case numbers, etc. We selected a judgmental sample2 of 15 out of 114 cases
           that had been subsequently removed from the ALERTS and were not available for
           our review, and requested documentation supporting the removal. We determined a
           sample size of 15 cases was appropriate to identify an inventory control weakness.
        B. Reviewed ALERTS data to verify that cases identified as miscoded in the Treasury
           Inspector General for Tax Administration Fiscal Year 2008–2010 FTCP audits3 were
           corrected as recommended.
        C. Performed a query of the ALERTS data to identify cases opened after July 22, 1998,
           with an issue code of 141 to 1474 and closed during the period January 1 through
           September 30, 2009, and confirmed that the resulting number of violations matched
           the number provided by the IRS during the prior year audit.
II.     Identified the number of FTCP violations resulting in administrative actions for any cases
        opened after July 22, 1998, and closed during Fiscal Year 2010.
        A. Performed a query of the ALERTS data to identify cases coded as FTCP violations
           that were opened after July 22, 1998, and closed during Fiscal Year 2010, and


1
  Only Fiscal Year 2010 ALERTS data were reviewed to determine if there were unexplained gaps in the sequential
order of case numbers.
2
  We used judgmental sampling to select cases because we did not plan to project the results.
3
  Collection Employees Adhered to Fair Tax Collection Practices From January 2009 Through September 2009
(Reference Number 2010-10-037, dated March 17, 2010); Collection Employees Adhered to Fair Tax Collection
Practices in Calendar Year 2008 (Reference Number 2009-10-101, dated July 23, 2009); and Five Fair Tax
Collection Practices Violations Resulted in Administrative Actions in Calendar Year 2007 (Reference
Number 2008-10-162, dated September 5, 2008).
4
  See Appendix V for a description of Fair Tax Collection Practices violation issue codes.
                                                                                                        Page 5
                            Collection Employees Adhered to Fair Tax
                           Collection Practices During Fiscal Year 2010



          determined whether any cases involving FTCP violations resulted in administrative
          actions.
       B. Performed a query of the ALERTS for cases opened after July 22, 1998, and closed
          during Fiscal Year 2010 and analyzed the results to determine whether any cases
          were miscoded and should have been coded as FTCP violations.
       C. Verified query results in II.A and II.B by confirming the number of violations with
          IRS personnel responsible for the ALERTS.
III.   Identified the number of FTCP violations resulting in IRS civil actions (judgments or
       awards granted) by obtaining a computer extract from the Chief Counsel’s Counsel
       Automated System Environment database of Subcategory 6304 (established to track
       FTCP violations) cases opened after July 22, 1998, and closed during Fiscal Year 2010.
       Due to time constraints, we did not conduct validation tests of this system. The Fiscal
       Year 2010 data were consistent with those of past years, and there is low risk that cases
       were misclassified because qualified attorneys were deciding whether each case met the
       legal definition of an FTCP violation. For these reasons, we considered the data’s
       reliability as undetermined but suitable for use in this report.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that internal
controls related to the reliability of information were relevant to our audit objective. We
performed procedures to validate the ALERTS data and discussed inventory control weaknesses
with management. We evaluated these controls by reviewing cases and determining whether
they were correctly coded.




                                                                                           Page 6
                          Collection Employees Adhered to Fair Tax
                         Collection Practices During Fiscal Year 2010



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Troy D. Paterson, Director
Gerald T. Hawkins, Audit Manager
Melinda H. Dowdy, Lead Auditor
Donald J. Martineau, Auditor




                                                                                   Page 7
                          Collection Employees Adhered to Fair Tax
                         Collection Practices During Fiscal Year 2010



                                                                   Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Workforce Relations, IRS Human Capital Officer OS:HC:R
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Counsel CC
       IRS Human Capital Officer OS:HC




                                                                          Page 8
                                   Collection Employees Adhered to Fair Tax
                                  Collection Practices During Fiscal Year 2010



                                                                                     Appendix IV

                Fair Tax Collection Practices Provisions

To ensure equitable treatment of debt collectors in the public and private sectors, the
IRS Restructuring and Reform Act of 19981 requires the IRS to comply with certain provisions
of the Fair Debt Collection Practices Act.2 Specifically, the IRS may not communicate with
taxpayers in connection with the collection of any unpaid tax:
      •    At unusual or inconvenient times.
      •    If the IRS knows that the taxpayer has obtained representation from a person authorized
           to practice before the IRS and the IRS knows or can easily obtain the representative’s
           name and address.
      •    At the taxpayer’s place of employment, if the IRS knows or has reason to know that such
           communication is prohibited.
In addition, the IRS may not harass, oppress, or abuse any person in connection with any tax
collection activity or engage in any activity that would naturally lead to harassment, oppression,
or abuse. Such conduct specifically includes, but is not limited to:
      •    Use or threat of violence or harm.
      •    Use of obscene or profane language.
      •    Causing a telephone to ring continuously with harassing intent.
      •    Placement of telephone calls without meaningful disclosure of the caller’s identity.




1
    Pub. L. No. 105-206, 112 Stat. 768-769.
2
    15 U.S.C. §§ 1601 note, 1692-1692p (2006).
                                                                                                  Page 9
                              Collection Employees Adhered to Fair Tax
                             Collection Practices During Fiscal Year 2010



                                                                                    Appendix V

 Fair Tax Collection Practices Violation Issue Codes

  Issue Code                                         Description
     141          CONTACT TAXPAYER UNUSUAL TIME/PLACE – Contacting a taxpayer
                  before 8:00 a.m. or after 9:00 p.m., or at an unusual location or time, or location
                  known or which should be known to be inconvenient to the taxpayer.
     142          CONTACT TAXPAYER WITHOUT REPRESENTATIVE – Contacting a
                  taxpayer directly without the consent of the taxpayer’s Power of Attorney.
     143          CONTACT AT TAXPAYER EMPLOYMENT WHEN PROHIBITED –
                  Contacting a taxpayer at his or her place of employment when it is known or
                  should be known that the taxpayer’s employer prohibits the taxpayer from
                  receiving such communication.
     144          USE/THREAT OF PHYSICAL HARM – Conduct which is intended to harass
                  or abuse a taxpayer, or conduct which uses or threatens to use violence or harm.
     145          USE OBSCENE/PROFANE LANGUAGE TO ABUSE – The use of obscene
                  or profane language toward a taxpayer.
     146          CONTINUOUS PHONE CALLS WITH INTENT TO HARASS – Causing a
                  taxpayer’s telephone to ring continuously with harassing intent.
     147          PHONE CALLS WITHOUT MAKING FULL IDENTIFICATION
                  DISCLOSURE – Contacting a taxpayer by telephone without providing a
                  meaningful disclosure of the IRS employee’s identity.
Source: IRS ALERTS User Guide (October 2009).




                                                                                             Page 10
